In The
Supreme Court of the United States

AUDREY L. KIMNER
Petitioner,
v.
WEB WATCHERS, BRAD MILLER, CEO; MIKE OSBORN, Co- Founder of
AWARENESS TECHNOLOGIES; RON PENNA, Co - Founder of
AWARENESS TECHNOLOGIES; MICHAEL J. KIMNER; LORI D. STONEY,
Esq.; MARGARET THEOS, Esq.; J.TODD MANLEY, Esq.; THOMAS
KIMNER; SUZANNE GROFF, Esq.; ALEX CASH, Esq.; SUSAN KIMNER
Respondents

On Petition For A Writ of Certiorar REHEARING REQUESTi in the United States
Supreme Court of Appeals for the Ninth Circuit, San Francisco, CA

PETITION FOR A WRIT OF CERTIORARI
REHEARING REQUEST

AUDREY L. KIMNER.
Petitioner, Pro Se
P.O. Box 1493
Carmel, CA. 93921
audrevkimnerl Q@amail.com

RECEIVED
JUL 1 3 2021
OFFICE OF THE
SUPREME

U

V

Scott S. Harris
Jeffery Atkins
United States Supreme Court Clerks
Office of the Clerk, Washington, DC 20543-0001
RE: Kimner v. Web Watchers, et. al.
No. 20-1343
Dear Mr. Harris and Mr. Atkins,
In response to your letter requesting Rule 44.6 of this court, dated June 15, 2021 and received
by the clerks on June 22, 2021, and petitioner received by commercial carrier on July 6, 2021,
petitioners honors the request to add what has not been submitted to the United States
Supreme Court thus far, along with a docket fee per Rule 38 (b),including a certificate of good
faith and not for delay. Petitioner is mailing this correction, along with a few points that petitioner
has learned since submitting this rehearing request in this lengthy case on June 15, 2021. After
speaking to Mr. Atkins on the phone this morning, the petitioner is appreciative of clarification
from this clerk in kindness.
The error of the previous court clerks failed to acknowledge that petitioner won by default, and
petitioner feels this is another attempt to waste the United States Supreme Court's time. Also,
the petitioner did not receive Lisa Nesbitts letter back from Mr. Atkinds in the commercial air
packet. There is now conflict due to numerous court clerks collectively tampering and failing to
offer Proper Procedural Due Process under the United States Constitution per petitioners
Fourteenth Amendment Right. Petitioner sent a letter to Mr. Harris and Chief Justice John
Roberts with no response to date. Petitioner feels that two default judgments should have been
■ awarded, and signed off by a Supreme Court judge with a seal of authenticity from the United
States Supreme Court. Petitioner is submitting our previous correspondence letters that were
sent to Lisa Nesbitt, including the proof that the respondents failed to respond to the Supreme
Court Order by brief dated in opposition due Friday, April 23, 2021. This occured after the case
was placed on the docket on March 24, 2021 from original filed date of December 1,2021.
There were two letters mailed by two respondents to petitioner stating both were pro se, but no
brief was mailed to petitioner per Supreme Court orders, nor was a brief submitted to the United
States Supreme Court per petitioner's knowledge. Please see attached.

I, Audrey L. Kimner, pro se petitioner, requested in petitioners original complaint two years ago,
prior to covid, that this case remain open to exercise petitioners Constitutional Rights to file a
complaint on others who were involved in illegally taking petitioners awarded assets with
knowledge of many federal crimes and fraud for profit with those awarded assets. All California
Federal Court judge’s failed to bring these federal crimes forward, and tampered with this case
to remove this case on and off the docket. All orders are not enforceable by law, along with no
judges to date having subject matter jurisdiction in all three of the petitioner's cases. The courts
clerks and others collectively decided this case when this case is not frivolous. To be clear, this

case is an abuse of process case with the use of a legal process against petitioner to
accomplish a purpose for which it is not designed, an ulterior motive and willful acts in the
process not proper in the regular conduct of the proceedings in all courts to date. In no court
order does it state Audrey L. Kimner is a vexatious litigant per remarks this week from a court
clerk's own words on the phone who knows nothing about petitioners case’s.
Petitioner would like to note that relevant cases are coming out in public with the same laws and
constitutional violations that are now resolved with relief in a court of law, especially a pro se
litigant who sued the same software company and created new case law. This pro se litigant
was allowed many court dates, so to deprive petitioner of the same is unconstitutional and
discrimination. This includes punitive damages owed as he collected, including petitioners own
assets on top returned in the amount of multi millions. This obstruction has cost petitioner
millions if not billions in loss while assuming petitioner could not be a CEO of her company,
along with homes to live in, to be on a board of a company that was funded by petitioner while
told “ the company does not want a women on their board” by previous counsel. Petitioner had a
court order the Liquid Ice failed to acknowledge from 2011 to date with half partnership, half
stocks and half monies until placed in petitioner's name. This company was placed on
petitioners credit report for unpaid taxes, which is a serious crime and must be resolved in open
court. This systematic ongoing failure to offer what is constitutional and awarded to women who
are also mothers is under the Equal Protections Act in 1965, ironically the same year that
petitioner was born. The Brittany Spears case is the same case involving Abuse of Process and
Rights for mothers in the public eye, as Brittany was denied the same privileges this past week
by a judge abusing power in our courts. Let petitioner clarify to our court how much Designer
CEO women and men actually make per public knowledge:
1) Kevin Plank, Under Armour net worth 1.9 Billion in 2021, multi millions within five years of
starting his business.
2) Ralph Lauren, 7 Billion in 2021
3) Dolce & Gabbana, 1.6 Billion as of March, 2021.
Petitioners can not place a number on her children who have not seen their mother succeed
under a company named to their legacy, and that is what the courts have tampered with for
years now.
Please allow petitioner to add that designers are worth TWICE as much if a sport line is involved
in their design business, which Ralph Lauren is the only one with very few golf fashions to offer,
as petitioners business did including had a copyright, noncompete, along with national
exposure on the Brian Tracy Show. Petitioner launched a book co-authored with Rudy from
Notre Dame and others in 2018, and while enduring abuse of process and withheld awarded
assets against Hobbs Act Federal law. All involved in intentionally harming petitioners have now
destroyed petitioners entire business and personal life, especially our children's lives for ten plus
years. For the magistrate judge to state petitioner is asking for too much money, could he have
erred in not knowing how much petitioner was really worth as a start up? The sights of a three
million for California sales alone per year gross income, not including many other products, and

prior to covid. Is this bias or sexiest? Petitioners can not have ten years added back to business
or personal time lost, loss of wages and while destroying petitioners authentic business in front
of the world on social media. This tragedy is not including Facebook entries never brought forth
to any court to date due to no hearings and public officials obstruction. Petitioner has the right to
explain and this would have allowed the courts free time for other cases on the docket in our
most important courts. Note as well that this software company settled for $88 million to the
other pro se litigant who endured a glimpse of the losses as in petitioners case, but not to
discredit his case in any way, or what we both endured from Web Watchers and Awareness
Technologies to date. Why is he allowed punitive damages as pro se, but pro se petitioner is
not? He was allowed numerous court hearings and created new case law for petitioner, but
Honorable Lucy H. Koh had no regard for petitioner, this case or new case law. See Luis v
Zang, No.14-3601 (6th Cir.2016). Petitioner requested many reliefs with proof with no avail.
Note: a plaintiff has standing only if can “allege personal injury fairly traceable to the defendant’s
allegedly unlawful conduct and likely to be addressed by the requested relief, which petitioner
has done. See, DaimlerChrysler Corp. v Cuno, 547 U.S.332, 342 (2006).

Petitioner requested the Supreme Court judges look into this case for failure to follow the federal
Wiretapping laws and new case law, which not one federal judge has viewed to date, along with
Facebook entry illegally per forensic reports that petitioner has not fully read to date. Petitioner
was waiting on a court hearing to divulge more facts and proof in open court by jury per Seventh
Amendment Rights. Petitioner has been forced into enduring full time abuse of process by the
Federal Courts and judges.
Under 25 CFR § 11.448, Abuse of office occurred with mistreatment, false arrest and false
imprisonment, false mortgage fraud liens, and other infringement of personal Rights and
property. This included years of invasion of privacy, malicious prosecution and impeding on
petitioners enjoyment of life for more than ten years, after divorce, and involving all three cases.
Petitioner has another case nightmare this morning that was dismissed involving proven and
viewed fraud by a public official, which all must be addressed in a court of law, as the California
district court judge’s knowingly error by more conflicts and stating California has jurisdiction on
one property and not the other property as both properties are in Texas and South Carolina.
Petitioner's three cases do not have anything to do with one another, as one involves a public
official, one was a simple fraud ruling in court, and the third concerning this wiretapping case
while the petitioner requested a jury. Lucy H Koh failed to bring this case to court, nor did she
alert the authorities of this Federal Crime and many other federal crimes. The same failure to
bring crimes forward by the other judges, especially today with judge Davila. Honorable Edward
Davila, and Magistrate Cousins collectively ruled to date on a property in Texas involved in
Fraud for profit that was purchased by petitioner years after divorce, which had a false lien
attached by Berkeley County Court with false court orders that were created under the color of
law, now not enforceable, and while garnishing petitioners wages in California to date for
monies not owed to anyone by law. All must be returned by petitioners Rights and financial
abuse laws requested two years ago with restraints that were all ignored. The California courts
speculated and assumed all cases were related, and collectively decided without a hearing,

which cost petitioner two more years of legal abuse, Abuse of office with Abuse of Power for no
reason except revenge, including women and mothers discrimination to date. See Wheeldin v
Wheeler, 373 U.S. 647 (1963, and Massachusetts v. Mellon 42, and Robert S. Peck, 35 trial 66
(Nov. 1999).
Note: petitioner left the emergency room yesterday with a doctor noting petitioner needs surgery
to correct a previous surgery that is noted in petitioner's original complaint from two years ago,
including a motion to reconsider Lucy H Koh. Petitioners' health was completely ignored
intentionally by this federal judge. Now this medical issue is much worse and now involves
multiple specialist. This is an outrageous Abuse of Power and Abuse of office against petitioners
Constitutional Rights, and under two Bill of Rights as a victim of assault. California leads in
domestic violence laws and discrimination laws, so this is telling of the abuse to petitioner for no
reason or canons of ethics following, including oaths of office.
Petitioners three cases were not addressed or resolved, and later tampered with after request
by petition by the petitioner, along with two complaints to the judicial board with no response,
only Honorable Davila stating he would not recuse. This failure to recuse and now for the
second time, he wrote with others that fraud upon the court involving mortgage fraud for profit
schemes by and involving public officials was frivolous. Honorable Edward Davila was provided
proof of forgery under Federal Law. Fraud is the reason petitioner is allowed by law to remand
back to court until resolved. Petitioner stated Rule 59 and 60 apply and was ignored. Please
clarify that all three cases are unresolved with fraud upon the court and conspiracy to commit
mortgage fraud for profit. This is now a ten year statute with twenty years in Federal prison, not
to mention third party laws under Rule 4.1.
Petitioner will close with invasion of privacy in business, not only personal. Petitioners copyright
and photos involving her business could have been sold and used while involving other
countries unlawfully, which all petitioners harddrives were backed up on a server in California by
Web Watchers and Awareness Technology against the Federal Wiretap Act.
Petitioners have been set up and systematically abused, so this is frightening that this could
happen again for revenge of these cases, prior, during and after. Please see that this case and
two others remain open until resolve with protection under Federal laws. All cases are not
closed due to Fraud, Fraud upon the court and should be addressed by a judge, not court clerks
posing as judges. Petitioner needs verification where all cases are at all times with orders from
judges, and not ex parte to date. Pro se is not a reason to dismiss, withhold, obstruct, abuse,
discriminate, future harm, harass, disparage, mistreat or deprive Rights to petitioner, family, or
petitioners college age children. For Lucy H. Koh to say or print that I am malicious is
disingenuous, cruel and an intentional set up, and is not proven by law. This is simply retaliation
and her being malicious herself to cover up for all involved in fraud for profit by members of the
bar. Lucy H Koh has started her own Asian American Bar Association against canons of ethics,
and with family members on the same circuit above her. She maliciously told a bar member in
open court per the paper that “ he must be on crack". The Supreme Court justices can now be
the judge.

Note: The Supreme Court plays a role of protecting civil rights and liberties by striking down
laws that violate the Constitution while ensuring that each branch of government recognizes the
limits of its own power. Petitioner would like her rights protected please. The failure of
Procedural Due Process of the Fourteenth Amendment also applies to the petitioner at all times,
as it did for the famous Bill Cosby who is found guilty, but is allowed to walk out of prison for
violations of Proper Procedural Due Process. To say Audrey L. Kimner is not allowed this same
right is biased, discrimination, unlawful, racial, sexist and Unconstitutional. “ Where there is a
right there is remedy”
Section 11139.8, 1 (a), Legislature finds and declares that California is a leader in protecting civil
rights and preventing discrimination. Also see, Bulloch v United States, 763 F2d 1115,
1121,(10th cir.1985), Fraud upon the court is fraud which is directed to the judicial machinery
itself. “It is where the impartial functions of the court have been directly corrupted.", which fit all
of petitioner's federal cases to date with no hearing, remedy, resolve, or warranted default
judgements in both courts on two Supreme Courts cases pending.
Respectfully,
Audrey L. Kimner, pro se petitioner
Dated July 08, 2021, and mailed by U.S. mail overnight on the same date.

CERTIFICATE

Petitioner Audrey L. Kimner declares that all statements, facts and information given to date to
the Supreme Court and all California Courts are true, in good faith, not in malice, nor involved in
any vexatious litigation to date. To say such is disingenuous, spiteful, revengeful, racist,
malicious and in retaliation. Had petitioner been allowed First Amendment Rights, there would
be no question that this case is filed and continues to be filed in good faith without malice of any
kind. All statements are true to the best of the ability of the petitioner who doesn’t want or
request any special privileges, but only to have been awarded a warranted default judgement
for two cases, and one case accepted under a future filed new petition for writ of Certiorari to
the Supreme Court, and as of today against Berkeley County South Carolina. Petitioner should
not be held liable for any legal fees to date, as the law and truth was not posted in any orders,
and orders are conflicting, moot, not enforceable by law, under the color of law, and out of
jurisdiction or subject matter to all judges, except the justices of the United States Supreme
Court. Petitioner has the right to have a justice review these cases, and regardless of session
time for the summer, etc. So far, this case has not been viewed by any judge to petitioners
knowledge in the Supreme Court, nor given a proper order, any order, no remedy, command,
remand, resolve, relief or acknowledgement, only mentions by court clerks that judges who no
longer have subject matter jurisdiction in this case are sending mandates under the color of law.
There should be no mandate with any orders, as the lower courts do not cross into the Supreme
Court by jurisdiction for not following the law with this case, and should not be stalking Audrey L.
Kimners cases to harass, harm, intimidate, threaten, obstruct or tamper. Petitioner did not and
will not file in any court for intentional delay or malice. Petitioner has been waiting on the courts,
forced through covid with no relief and waiting on court hearings and orders. Most orders have
never been mailed under no proper procedural due process by law. Petitioner believes this was
and is intentional and ex parte, which orders clearly show the Supreme Court obstruction and
tampering without question. Again, petitioner request all three cases remain open until full
resolve concerning fraud and federal crimes under Constitutional Rights, and two default
judgements for failure to acknowledge or offer remedy, appear, respond, decline, or object to
petitioners federal complaints in all courts to date.

Respectfully,
Audrey L. Kimner, pro se petitioner

Dated: July 08, 2021

In The
Supreme Court of the United States

AUDREY L. KIMNER
Petitioner,

v.
WEB WATCHERS, BRAD MILLER, CEO; MIKE OSBORN, Co- Founder of
AWARENESS TECHNOLOGIES; RON PENNA, Co - Founder of
AWARENESS TECHNOLOGIES; MICHAEL J. KIMNER; LORI D. STONEY,
Esq.; MARGARET THEOS, Esq.; J.TODD MANLEY, Esq.; THOMAS
KIMNER; SUZANNE GROFF, Esq.; ALEX CASH, Esq.; SUSAN KIMNER
Respondents

On Petition For A Writ of Certiorar REHEARING REQUEST! in the United States
Supreme Court of Appeals for the Ninth Circuit, San Francisco, CA

PETITION FOR A WRIT OF CERTIORARI
REHEARING REQUEST

RECEIVED
JUN 2 2 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

AUDREY L. KIMNER.
Petitioner, Pro Se
P.O. Box 1493
Carmel, CA. 93921
audrevkimnerl Q@amail.com

REHEARING REQUEST
I, Audrey L. Kimner, petitioner pro se, requested to bring a California Federal Wiretapping case
up to Washington for final relief in a Racketeering case. I am an entrepreneur, scratch golfer,
designer, published author and mother. Petitioner finalized a divorce in 2012 with formal
agreements not to relitigate this case in irrevocable binding arbitration. My ex-husband, his
family and many lawyers have used petitioners awarded assets and homes in a fraud for profit
scheme by using Web Watchers software, and under the color of law. Petitioner had new case
law from an honorable judge, which states the software companies agree to pay damages if
victimized. My ex husband has used this software with his executive fraud and wiretapping
executive brother to move petitioners awarded assets to different banks, etc. All involved have
conspired in revenge of an assault arrest and wiretapping proof to invade petitioners entire life
ongoing with forensic proof. Petitioner moved out of state to get away from legal abuse by
numerous members abusing petitioner by using the legal system to further abuse. Petitioner
had to take this case to Washington after California District Court refused to allow court time,
ignored the federal laws, and continued to follow petitioners' case to Washington by a mandate
against petitioners Constitutional Rights. Petitioner needs resolve and this case to be heard in
Washington because petitioner has the Right to a fair trial, and petitioner requested to have two
default judgements awarded for all respondents refusing to acknowledge service by U.S. mail
and refusing to acknowledge the Supreme Court time scheduled order, prior to the court clerk
removing the case with no order and no reason given after accepting this case. Petitioner needs
court time to have awarded assets returned immediately per assault victim laws, which were
also ignored, including privacy Rights in California. Petitioner has proved this case and is further
abused and vilified by a California judge when she failed to offer procedural due process, relief,
resolve, ignored all laws and deprived petitioner of all Rights under 18 U.S.C.§ 242. This case is
is indisputable and petitioner requested a default judgement twice and this case was accepted
by the United States Supreme Court Clerk, and then he removed it to allow other cases ahead
of this URGENT case. Financial abuse is clear in California with return of petitioners homes,
assets, which include 401k, retirement, royalties of stocks tied to the SEC, and monies owed on
top, including damages that respondents self admit to pay in case law and in email. Petitioner
should have been awarded First Amendment Rights to be heard to show two pieces of paper to
prove this entire case, of which the Ninth Circuit Court of Appeals and others witnessed and
then covered up. Petitioner is being extorted with false court orders, threats to extort passport,
and illegally garnished wages when petitioner does not owe this money, and our children were
extorted six years ago. Nobody in our family has had contact with our college age children who
are wiretapped and our phones are blocked with AT&T verifying phone numbers have been sold
to retrieve text messages. Petitioner has been forced to file enormous paperwork in the
thousands of dollars and not allowed a five minutes in court to resolve this dangerous case with
continued mental injury to our children who do not know where their mother is. I have no
criminal record after approx 150 false contempts of court by respondents. Our children extorted
for petitioners awarded assets when the petitioner was detained on a flight due to a passenger
having a heart attack in 2015. Petitioner requested a no contact order, restraints and court time
with no avail. Petitioner is in the proper jurisdiction, and the California Ninth Circuit has
confirmed

fifi-

this under Federal question and Diversity both, but now California has no jurisdiction by law.
Petitioner is not pro se by choice, only after eighty members denied this case due to members
being federally involved. Removing petitioner’s case after two years and after petitioner was
forced to stay during a global pandemic with no regard for petitioner Constitutional Rights. Not
one five minute hearing was offered all the way to the Supreme Court, and then the clerk sent a
two line note with again no resolve and against petitioner Constitutional Rights. Petitioners has
the right to go on with life and to pursue happiness, health and wealth, not tied to our legal
system for no reason. Petitioner has endured being placed in jail for months with no due
process, forced ruin of career and excellent credit in attempts to intentionally destroy petitioner's
entire life intentionally.
Petitioners Rights have been deprived, refused to overturn bad faith litigation with litigation and
while stripped of motherhood and time that can not be replaced. This included all graduations,
and again college graduations recently and petitioners should be awarded punitive damages.
Petitioner noted the canon of ethics, oaths of office, Federal laws, Constitutional Rights,
Wiretapping laws and the Bivens Action, which are involved and ignored by all. Petitioner has
previously provided all case law, new case law from an honorable Ohio judge, including all
indisputable proof and forensic to date. Petitioners' court time has been replaced with cases for
politicians, criminals, and illegals while petitioner has been refused all federal funding during
covid during horrendous court abuse for two more years. Petitioner is a U.S. citizen with a family
of military, police officers and petitioners father was a Navy Master Chief before retiring as a
staff engineer at NASA for NTI. Our children's grandparents can write books for NASA, but can
not see their grandchildren, and have to be stressed with elder abuse and financial abuse to
help petitioners through unnecessary legal abuse. The Supreme court clerk has been sued prior
for violating Civil Rights, and again after petitioner left the previous state for safety of double the
national average for women being murdered, bodies floating behind pettioners home in South
Carolina, and now leading in human trafficking. California now has an audit showing the CA bar
has been ignoring judicial complaints in the hundreds of cases for one lawyer and in the same
type embezzlement case of awarded assets. Petitioner wants a court hearing date, and this
case to be placed back on the docket. The court clerk and judge placing others in front of this
case without any resolve or compassion is beyond comprehension. Petitioner is one of many in
CA where domestic violence laws are leading in the U.S., which the petitioner requested and
was deprived of all. Please have an honorable judge panel, a jury as requested, to hear this
case in Washington. Petitioners should not be forced in SSI when awarded assets are withheld
and taken against Federal laws. Petitioner sent the court clerk a letter, turned in a judicial
complaint, and petition for one new judge and was ignored. Petitioners' assets have been the
focus of this entire ten plus years case after closing. Petitioner requested Rights to keep this
case open, only to be ignored by Honorable Lucy H. Koh. This case was accepted and should
be heard per the time schedule order that was ignored by all respondents with no brief, only a
letter that two are working pro se in Washington. Case law and dates are in petitioner's writ of
certiorari, appeals and original complaint. Respectfully, and prepared by:
Audrey L. Kimner, pro se petitioner
Mailed: June 15, 2021 within 28 day deadline, 1,208 WC

V
40 copies including all contacts concerned attached. Pg 3

Note: Canon 2C- The judge may not serve on the board of any organization that practices
invidious descrimination. 4C- Family members are not allowed, Lucy H Koh and husband.
Note: Case law states; When a judge acts as a trespasser of the law, when a judge does not
follow the law, he then loses subject matter jurisdiction and the judges orders are VOID, of no
legal force or effect, as in Lucy H. Koh, Magistrate Cousins and Edward Davila. The reason I
requested all orders be VACATED, and this case called under default, or up to Washington.
Please copy all concerned and waive all fees in this rehearing request, as all was paid in full
previously to date.
Chief Justice John Roberts
ABA CEO, Doug Ende, Chief Disciplinary counsel, Washington State Bar Assoc.
ABA President, Patricia Lee Refo
Chief Judge Kimberly A. Moore, Federal Circuit
Chief Justice Sidney R. Thomas, Ninth Circuit
Judge Rosanna Malouf Peterson, Eastern District of Washington
Respondents:
WEB WATCHERS, BRAD MILLER, CEO; MIKE OSBORN, Co- Founder of AWARENESS
TECHNOLOGIES; RON PENNA, Co-Founder of AWARENESS TECHNOLOGIES; MICHAEL J.
KIMNER; LORI D. STONEY, Esq.; MARGARET THEOS, Esq,; J TODD MANLEY, Esq.;
THOMAS KIMNER; SUZANNE GROFF, Esq.; ALEX CASH, Esq.; SUSAN KIMNER

Additional material
from this filing is
available in the
Clerk's Office.

